CERTIFICATE OF COMPLIANCE
Case No. 19-1212
Caption: Alejandro N. Mayorkas, Secretary of
Homeland Security, et al. v. Innovation
Law Lab, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 2,651 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 11, 2021.

~l
Nadia Oswald-Hamid
Record Press, Inc.

Sworn to before me on
June 11, 2021
JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
alifiea in Queens County
s ion Expires Septe er 16, ~023

